                                                                     AUDIT




             U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND
             SPORT FISH RESTORATION PROGRAM GRANTS
             Awarded to the Government of Guam, Department of Agriculture,
             From October 1, 2009, Through September 30, 2011




Report No.: R-GR-FWS-0012-2012                                  November 2012
                                                                              November 14, 2012

                                       AUDIT REPORT

Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Suzanna I. Park //signed//
               Director of External Audits

Subject:       Audit – U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
               Program Grants Awarded to the Government of Guam, Department of
               Agriculture, From October 1, 2009, Through September 30, 2011
               Report No. R-GR-FWS-0012-2012

       This report presents the results of our audit of costs claimed by the government of Guam
(Guam), Department of Agriculture (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to Guam under the Wildlife and Sport Fish
Restoration Program. The audit included claims totaling $4.1 million on 32 grants that were open
during fiscal years that ended September 30, 2010, and September 30, 2011 (see appendix 1).
The audit also covered the Department’s compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of hunting and fishing license
revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We identified, however, that the Department (1) improperly drew down
grant reimbursements for expenditures related to another grant, and (2) did not have adequate
supporting documentation for a drawdown. In addition, Guam had not conducted the required
physical inventory of the Department’s equipment.

      We provided a draft report to FWS for a response. We summarized Department and FWS
Region 1 responses to the recommendations, as well as our comments on the responses after the
recommendations. We list the status of the recommendations in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
February 12, 2013. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation. Please address
your response to:
                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

       If you have any questions regarding this report, please contact the audit team leader,
Mr. Tim Horsma, or me at 703-487-5345.

cc: Regional Director, Region 1, U.S. Fish and Wildlife Service




                                                2
Table of Contents
Introduction ............................................................................................................. 1
   Background .......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology........................................................................................................ 1
   Prior Audit Coverage ........................................................................................... 2
Results of Audit ...................................................................................................... 3
   Audit Summary ................................................................................................... 3
   Findings and Recommendations.......................................................................... 3
Appendix 1 .............................................................................................................. 8
Appendix 2 .............................................................................................................. 9
Appendix 3 ............................................................................................................ 10
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts) 1 established the Wildlife and Sport Fish Restoration
Program (Program). Under the Program, the U.S. Fish and Wildlife Service
(FWS) provides grants to States 2 to restore, conserve, manage, and enhance their
sport fish and wildlife resources. The Acts and Federal regulations contain
provisions and principles on eligible costs and allow FWS to reimburse States up
to 75 percent of the eligible costs incurred under the grants. For certain
Government entities, including Guam, the Acts allow for full reimbursement of
eligible costs incurred under the grants. The Acts also require that hunting and
fishing license revenues be used only for the administration of the States’ fish and
game agency. Finally, Federal regulations and FWS guidance require States to
account for any income they earn using grant funds.

Objectives
We conducted this audit to determine if the government of Guam (Guam),
Department of Agriculture (Department)—

    •    claimed the costs incurred under the Program grants in accordance with
         the Acts and related regulations, FWS guidelines, and the grant
         agreements;
    •    used State hunting and fishing license revenues solely for fish and wildlife
         program activities; and
    •    reported and used program income in accordance with Federal regulations.

Scope
Audit work included claims totaling approximately $4.1 million on the 32 grants
open during State fiscal years (SFYs) that ended September 30, 2010, and
September 30, 2011 (see appendix 1). We report only on those conditions that
existed during this audit period. We performed our audit at the Department’s
Division of Aquatic and Wildlife Resources headquarters in Mangilao, GU, and
visited the Masso Reservoir Project, two fishing access locations, and Cocos
Island to observe wildlife research (see appendix 2). We performed this audit to
supplement—not replace—the audits required by the Single Audit Act
Amendments of 1996 and by Office of Management and Budget Circular A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.

1
  16 U.S.C. §§ 669 and 777, as amended, respectively.
2
  The Acts define the term “State” to include the District of Columbia, the Commonwealth of Puerto Rico,
the Virgin Islands, Guam, American Samoa, and the Commonwealth of the Northern Mariana Islands.


                                                                                                           1
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included—

   •   examining the evidence that supports selected expenditures charged to the
       grants by the Department;
   •   reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;
   •   interviewing Department employees to ensure that personnel costs charged
       to the grants were supportable;
   •   conducting site visits to inspect equipment and other property;
   •   determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities; and
   •   determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions for testing. We did not project the
results of the tests to the total population of recorded transactions or evaluate the
economy, efficiency, or effectiveness of the Department’s operations.

Prior Audit Coverage
On February 14, 2008, we issued “Audit on the U.S. Fish and Wildlife Service
Federal Assistance Program Grants Awarded to the Government of Guam,
Department of Agriculture, From October 1, 2004, Through September 30, 2006”
(No. R-GR-FWS-0009-2007). We followed up on all recommendations in the
report and found that the U.S. Department of the Interior, Office of the Assistant
Secretary for Policy, Management and Budget considered the recommendations
resolved and implemented.

We reviewed the single audit report and comprehensive annual financial report
for SFY 2010. These reports found that the government of Guam had not
performed the required comprehensive physical inventories of its property in SFY
2010 or in the 2 prior years.




                                                                                    2
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified, however, several conditions that resulted in the findings
listed below.

Improper Drawdowns. The Department improperly drew down grant
reimbursements from grant F-9-D-7 for expenditures related to grant F-1-R-18.

Inadequate Documentation for a Drawdown. The Department did not have
adequate supporting documentation on grant F-14-R-5 for a drawdown.

Inadequate Equipment Management. Guam had not conducted the required
physical inventory of the Department’s equipment.

Findings and Recommendations
A. Improper Drawdowns

Under the Program, FWS may reimburse the Department 100 percent of grant
expenditures, provided the Department expends its funds prior to seeking
reimbursement. We found that the Department improperly drew down funds from
grant F-9-D-7 (Maintenance and Redeployment of Fish Aggregating Devices) for
expenditures related to grant F-1-R-18 (Guam Sport Fish Investigations).

The Code of Federal Regulations (CFR), 2 CFR § 225, appendix A(c)(1),
provides basic guidelines for cost allowability. Specifically, to be allowable under
Federal awards, costs must be necessary and reasonable, allocable, authorized or
not prohibited, and adequately documented. In addition, 2 CFR § 225,
appendix B, states that a cost is allowable for Federal reimbursement only to the
extent of benefits received by Federal awards.

Further, 50 CFR § 80.16 requires payments to be made for the Federal share of
allowable costs incurred by the State in accomplishing approved projects. Under
this section, costs must be incurred on approved projects before the State may
request reimbursement.

According to a Department official, the expenses were charged to grant F-9-D-7
because grant F-1-R-18 had not yet been approved and related funds obligated.
This official also stated that once grant F-1-R-18 was approved, the expenditures
were transferred to this grant.



                                                                                     3
Based on our review, the Department should have waited until grant F-1-R-18
was approved before drawing down funds. The Department did not receive excess
reimbursement on these grants, but there is the potential that excess
reimbursement may be received if appropriate accounting adjustments are not
made.

Recommendation

We recommend that FWS ensure that the Department limits grant
reimbursement requests to allowable expenses only.


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

B. Inadequate Documentation for a Drawdown

Under the Program, FWS may reimburse the Department 100 percent of grant
expenditures, provided that the Department expends its funds on grant activity
prior to seeking reimbursement. In addition, when a subgrantee performs grant
activity, the Department must ensure that adequate support is provided to
demonstrate that work is performed prior to requesting reimbursement.

We found that the Department incorrectly drew down the initial reimbursement of
$99,618 from grant F-14-R-5 (Connectivity of Reef Fish Populations within the
Mariana Islands and the Greater Micronesia Region) before ensuring that the
work required under the grant had been performed. This grant was comprised of
work under a memorandum of understanding between the Department and the
University of Guam.



                                                                                 4
Federal regulations (50 CFR § 80.15(a) and (b)) state that to be allowable, costs
must be necessary, reasonable for the accomplishment of the approved project
purpose, and supported by source documents or other records as necessary to
substantiate the application of funds. Title 50 CFR § 80.16 requires payments to
be made for the Federal share of allowable costs incurred by the State in
accomplishing approved projects.

The Department did not ensure that drawdowns were made only when supported
by adequate documentation of the costs incurred.

Because the Department did not initially provide adequate documentation to
support the initial drawdown, it could not ensure that expenditures were used for
their intended purposes. The Department did subsequently provide adequate
documentation, so we are not questioning any costs.

Recommendation

We recommend that FWS require the Department to ensure that drawdowns
are made only when supported by documentation of costs incurred.


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

C. Inadequate Equipment Management

Guam’s Department of Administration (Agency) is responsible for completing
physical inventories every 2 years and maintaining the official fixed asset records
for Guam. The Agency did not adequately account for and control fixed assets
(equipment) purchased with Program grant funds and hunting license revenues.


                                                                                    5
We found that the Agency did not conduct the required physical equipment
inventory.

The SFY 2010 single audit report also contained a finding on Guam’s failure to
conduct the required physical inventories in that year or the 2 prior years.

Complete and accurate records are essential for managing equipment effectively.
Federal regulations (50 CFR § 80.18) require that the State be responsible for the
accountability and control of all assets to ensure that they are used for the purpose
for which they were acquired throughout their useful life. In addition, 43 CFR §
12.72(b) requires the State to follow their own laws and procedures when
managing equipment. The Agency’s fixed assets inventory procedures, updated
October 27, 2010, require—

   •   a physical inventory be performed every 2 years;
   •   the results of the Agency inventories to be cross-checked with the
       Agency’s fixed asset records; and
   •   any discrepancies between the inventories and the fixed asset records be
       reconciled.

We believe these conditions occurred because the Agency had not assigned
sufficient priority to account for and control fixed assets by conducting the
required physical inventories of Agriculture’s equipment. The SFY 2010 single
audit report stated that—

   •   noncompliance with applicable equipment requirements has been a
       continuing finding;
   •   inventories were not conducted because Guam was in the process of
       implementing its fixed asset management system; and
   •   efforts were first being made to tag all of the equipment with bar code
       property identification labels before conducting the physical inventories.

According to a Department official, although the Department had not
implemented policy and procedures, it has been updating its equipment records.
The Agency’s failure to conduct the required periodic inventories and to keep
accurate records hinders the Department’s ability to safeguard and account for its
equipment. As a result, the Department cannot ensure that equipment items
purchased with Program grant funds were being used for the purposes for which
they were originally acquired, nor can it ensure that any equipment items
purchased with hunting license revenues were being used for fish and wildlife
related purposes.




                                                                                    6
Recommendation

We recommend that FWS require the Department to work with the Agency
to follow procedures—specifically, to conduct a physical inventory every
2 years and to ensure that any discrepancies between the inventories and the
fixed asset records be reconciled.


Department Response
Department officials concurred with the finding and recommendation. The
Department also stated that the Government of Guam is working to resolve the
equipment inventory process.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.




                                                                                7
Appendix 1
                   Government of Guam
               Department of Agriculture
        Financial Summary of Review Coverage
      October 1, 2009, Through September 30, 2011

          Grant        Grant         Claimed
         Number       Amount          Costs
      F-1-R-14        $1,480,244      $421,521
      F-1-R-17           333,395       333,395
      F-1-R-18           333,308       331,508
      F-6-B-6            121,606         6,302
      F-8-D-5             57,616         9,532
      F-8-D-6             28,085        12,492
      F-9-D-7            643,826       541,992
      F-9-D-8            335,317        22,102
      F-11-D-1           531,043       481,204
      F-14-R-1           325,985       127,969
      F-14-R-2            38,781        12,260
      F-14-R-3           100,000        98,117
      F-14-R-4           140,222        47,983
      F-14-R-5           292,833       202,926
      F-14-R-6            17,500        11,432
      F-14-R-7            28,100         9,990
      F-14-R-9            44,205        30,160
      F-14-R-10          206,860        66,097
      F-14-R-11            4,000           439
      F-14-R-18           15,000
      F-15-E-1            27,822         12,900
      F-16-D-1            30,000         19,768
      F-17-R-1            70,108         55,866
      F-17-R-2            71,901         53,961
      F-19-E-1            94,701         66,897
      F-19-E-2           162,898         76,037
      F-20-B-1            98,606         94,396
      F-21-B-1           744,106        221,027
      FW-3-C-18          218,548        181,139
      FW-3-C-19          248,936        109,598
      W-1-R-18           458,865        187,125
      W-1-R-19           642,992        264,974
      Totals         $7,947,409     $4,111,109


                                                    8
Appendix 2
               Government of Guam
             Department of Agriculture
                   Sites Visited

                   Headquarters
                     Mangilao

             Wildlife Research Project
                    Cocos Island

                  Fishing Access
                 Agana Boat Basin
                    Ylig River

               Reservoir Restoration
                 Masso Reservoir




                                         9
Appendix 3

                         Government of Guam
                         Department of Agriculture
              Status of Audit Findings and Recommendations

Recommendations             Status               Action Required
A, B, and C           FWS management       Based on the FWS response,
                      concurred with the   additional information is
                      recommendations,     needed in the corrective action
                      but additional       plan, as listed in the Findings
                      information is       and Recommendations section
                      needed.              under OIG Comments. We will
                                           refer the recommendations not
                                           resolved and/or implemented
                                           at the end of 90 days (after
                                           February 12, 2013) to the
                                           Assistant Secretary for Policy,
                                           Management and Budget for
                                           resolution and/or tracking of
                                           implementation.




                                                                        10
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
